   August 3, 2004




Audit Oversight
Followup Review of the Military
Department Audit Agencies Peer
Review
(D-2004-6-008)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Office of Audit Policy and Oversight at (703) 604-8760 or fax
  (703) 604-9808.

  Suggestions for Future Audits

  To suggest ideas for or to request future reviews, contact Audit Policy and
  Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas and
  requests can also be mailed to:

                                     OIG-APO
                   Inspector General of the Department of Defense
                        400 Army Navy Drive (Room 1015)
                             Arlington, VA 22202-4704




Acronyms
AAA                   Army Audit Agency
AFAA                  Air Force Audit Agency
CPE                   Continuing Professional Education
DAMIS                 Defense Audit Management Information System
GAO                   Government Accountability Office
GAS                   Government Auditing Standards
NAS                   Naval Audit Service
PCIE                  President’s Council on Integrity and Efficiency
seek ways to make improvements, especially for repeat observations made in the
FY 1999 and FY 2002 peer reviews. The scope and methodology of the review are in
Appendix A.

        Army Audit Agency. The AFAA had five observations concerning the AAA
internal quality control system from the FY 2002 peer review. Of the five observations,
two were repeated from the FY 1999 peer review.

       1. AAA needed to provide auditors with a single reference for determining
          planning phase requirements and needed to develop guidance on reporting on
          the reliability of computer-processed data.

       2. AAA could improve its annual quality assurance program by including
          broader-scoped quality control review projects with established milestones for
          each. (Repeat observation from FY 1999 peer review)

       3. Comments in quality assurance reports did not indicate specific planned
          corrective actions and did not provide estimated completion dates.

       4. Audit teams did not always comply with AAA established quality control
          requirements. (Repeat observation from FY 1999 peer review)

       5. AAA did not prepare or update certain documents required for financial
          statement audits from prior year audits.

               Guidance Needed. AFAA determined that the AAA should develop
guidance that would serve as a single reference for auditors determining planning phase
requirements. Also, the AAA needed to develop guidance that implements the reporting
standard on the reliability of computer-processed data. The AAA developed USAAA
Regulation 36-02, “Planning the Audit” dated July 14, 2003. Regulation 36-02
prescribed guidance for planning an audit engagement within the AAA including the
planning process from identifying future audit areas to an entrance conference. In
addition, AAA developed guidance on the reliability of computer-processed data that was
included in USAAA Regulation 36-3, “Audit Survey and Execution” dated
October 17, 2003. Specifically, Appendix G of Regulation 36-3 provided guidance on
how to meet GAS for performing assessments on the reliability of computer-processed
data and documenting the assessment results in the working papers and audit reports.

               Internal Quality Assurance Program. In relation to the AAA quality
assurance program, AFAA recommended that AAA include broader-scoped quality
control review projects in the annual quality assurance plan and establish milestones for
each quality control review project. The AFAA also recommended monitoring the
project progress against each milestone and to the extent possible assigning one quality
assurance staff member per project as a means to increase productivity.

        Since the FY 2002 peer review, AAA had issued 10 internal quality control
review reports compared to 3 reports issued from 1999 through 2002. To add
broader-scoped reviews to the quality assurance program, AAA had instituted two types
of internal quality control reviews: functional area reviews that covered multiple program
directors and post audit quality reviews that were comprehensive reviews of individual



                                            2
engagements for all program directors. Four of the 10 reports were post audit quality
reviews.

       Although additional resources were not added to the program, AAA had
developed a FY 2003 through 2005 quality assurance plan that listed the planned
milestones for each quality assurance project and the proposed number of personnel
assigned to the project. At least one staff member was assigned to each project in the
plan. To track project milestones for quality assurance reviews, AAA used the Army
Audit Agency System for Information Storage and Transmission (AAAsist).
Specifically, AAAsist ensures that employees and supervisors are aware of assigned tasks
and due dates related to those tasks.

               Management Comments. AFAA stated that the AAA Operating Deputy
Auditors General comments in the quality assurance reports did not indicate specific
planned corrective actions and did not provide estimated completion dates. A review of
the AAA quality assurance reviews issued since the FY 2002 AFAA peer review showed
that management comments were specific to include corrective actions and timelines for
completion. Since the FY 2002 AFAA peer review, the AAA also developed an Excel
spreadsheet that showed each quality assurance review report, the recommendations, the
responsible office for the recommendation, whether there was concurrence with the
recommendation, and the implementation date.

               Compliance with Quality Control Procedures. Audit teams did not
always comply with the AAA established quality control requirements consisting of
supervisory review of working papers, completing the internal quality control review
checklists, and independently referencing the draft report. According to AAA personnel,
the three operating Deputy Auditor Generals briefed the importance of supervisory
reviews during team and other meetings. Also, AAA issued guidance to all supervisors
and managers on May 6, 2002, clarifying the AAA policy on supervisory review of
working papers. Additional guidance was issued by AAA on March 5, 2004, that added
requirements for supervisors to follow during the independent report referencing process.
This guidance emphasized policies and procedures contained in USAAA
Regulation 36-85, “Independent Report Referencing” dated October 31, 1996, for
independently referencing agency reports. AAA has also provided training to agency
employees on quality control issues and has continuously reviewed this area during its
quality assurance reviews.

              Financial Statement Audit Documentation. The AAA did not prepare
and update from prior years audits certain documents the Government Accountability
Office (GAO)/PCIE Financial Audit Manual required for financial statement audits.
According to AAA, this issue had been put on hold and no action taken because the AAA
no longer does financial statement audits.

        Naval Audit Service. During the FY 2002 peer review of the NAS, the AAA
made two observations with associated recommendations to improve the NAS internal
quality control system. Of the two observations, one was repeated from the FY 1999
peer review.
           1. The continuing professional education (CPE) statistics in the NAS training
              system were not complete.



                                           3
           2. Audit teams did not always comply with quality control requirements in
              the NAS Handbook specifically related to referencing and supervision.
              (Repeat observation from FY 1999 peer review)

                 Continuing Professional Education. AAA determined that the CPE
statistics in the NAS training system were not complete. To improve the completeness of
the NAS CPE statistics, the NAS added a paragraph to their Management Handbook
requiring auditors to compare training records with data maintained in the Defense Audit
Management Information System (DAMIS) training module and notify training
personnel of any differences in the database. At the time of our review, the NAS was
conducting an internal quality control review to determine whether they were in
compliance with continuing professional education requirements relative to the GAS
general standard related to competence.

                Compliance with Quality Control Procedures. AAA also determined
that audit teams did not always comply with quality control requirements in the NAS
Handbook to provide reasonable assurance that audits were conducted in accordance with
internal policies, procedures, and audit standards. To increase compliance, the NAS
updated its referencer’s certification form to ensure that draft reports are fully
cross-referenced before referencing begins and that the NAS Assistant Auditor Generals
were apprised of unresolved issues. NAS also updated the referencer’s guidesheet to
focus on identified improvement areas and to require the use of more experienced senior
auditors with good performance records. In addition, NAS decided that referencers
would be given orientation training before they referenced reports.

        At the August 2002 Senior Leadership Conference, the NAS Auditor General,
Deputy Auditor General, and Assistant Auditor Generals decided to require a
certification by the Project Manager and Audit Director at the 90/240 day Auditor
General briefings to ensure that supervision was being documented in accordance with
the NAS Handbook. The senior leadership of the NAS also decided to implement
automated working papers starting October 1, 2002, that would make it easier for the
NAS to document supervision. In addition, on October 18, 2002, the NAS Policy and
Oversight office emphasized to all GS-14 and above supervisors, in an e-mail, the need to
follow requirements in the NAS Handbook pertaining to quality control forms,
maintaining complete audit programs, documenting supervision, cross-referencing to
working paper evidence, and adhering to audit reporting formats. Finally, the NAS
provided a lessons learned document in October 2002 to employees that listed the NAS
Handbook requirements identified by the AAA peer review and its own quality control
reviews that were not being followed.

       Air Force Audit Agency. The NAS made three observations regarding the
AFAA internal quality control system. One of the three observations was repeated from
the FY 1999 peer review.

           1. AFAA was not in full compliance with the GAS CPE requirements.

           2. AFAA did not have documented policies and procedures for identifying
              when consulting services were needed to support the audit.




                                           4
           3. AFAA was not adequately cross-referencing facts and figures in audit
              reports to supporting working papers. (Repeat observation from FY
              1999 peer review)

              Continuing Professional Education Requirements. NAS determined
that the AFAA was not in full compliance with the GAS CPE requirements. Specifically,
the NAS reported that AFAA personnel claimed and received CPE credit for training that
did not meet CPE guidelines, not all the AFAA auditors reviewed met the 20 hour or
80 hour CPE requirements, and there was no AFAA organization-wide mechanism to
track CPE hours.

        To improve compliance with the GAS CPE requirements, the AFAA issued a
November 4, 2002, memorandum to all employees that provided nine examples of
programs, activities, subjects, and topics that did not qualify for CPE hours. The
memorandum also encouraged the reading of the GAO “Interpretation of Continuing
Education and Training Requirements.” The AFAA had also conducted an internal
quality control review to determine whether the FY 2002 NAS peer review observations
had been corrected. In a July 8, 2004, report, the AFAA stated that its review of training
documentation for 30 of 752 assigned auditors disclosed all had met the 20 hour or
80 hour CPE requirements and that the auditors only received CPE credit for allowable
training classes. In addition, as of January 6, 2003, the AFAA implemented/identified
the DAMIS training module as the AFAA sole source for agency personnel to identify
desired training; complete and submit the required forms for requested training; and
track/certify CPE requirements.

                Guidance for using Consultants. NAS also determined that the AFAA
did not have documented policies and procedures for identifying when consulting
services were needed to perform the required task. The AFAA added Chapter 20, “Use
of Outside Consultants” to AFAA Instruction 65-103, “Audit Management and
Administration” dated October 9, 2002. This chapter states that the audit teams will
coordinate all decisions to use consultants with Headquarters AFAA and obtain Auditor
General approval. In addition, the chapter requires that the audit teams identify the need
for technical assistance as early as possible to allow sufficient lead-time to identify and
acquire the required skills. Finally, the chapter provided certain requirements for audit
teams to follow before they engage a consultant.

                Cross Referencing of Reports. NAS determined that facts and figures in
audit reports were not adequately cross-referenced to supporting working papers as
required by AFAA policies and procedures. NAS attributed the inadequate
cross-referencing to lack of attention by audit managers and lack of knowledge by the
audit staff of GAS as implemented by the AFAA audit regulations.

       To improve cross-referencing of audit reports, the AFAA issued a memorandum
dated October 31, 2002, to all employees stating that the requirement to cross-reference
was well documented by AFAA Instructions 65-101, “Installation-Level Audit
Procedures” and 65-102, “Centrally Directed Audits,” and both should be reviewed.
        In addition, AFAA reported in an internal quality control review report dated
July 8, 2004, that audit personnel were adequately cross-referencing summary working
papers to supporting documentation. AFAA evaluated the results of five internal quality
control reviews completed in 2003 and 2004. The five internal quality control reviews


                                             5
evaluated a total of 15 audit reports. Specifically, AFAA summarized the quality control
checklist question from the five internal quality control reviews on whether the audit
manager cross-referenced all facts, figures, and assertions in the draft report to the
summary working papers and the summary working papers to the supporting working
papers.




                                           6
Appendix A. Scope and Methodology
   Review Scope and Methodology. This review was performed from March
   through July 2004 in accordance with standards implemented by the Inspector
   General of the DoD. We reviewed the Military Department audit agencies FY
   2002 peer review reports and letter of comments to determine what observations
   and recommendations were made for each of the audit agencies. We also
   obtained and reviewed policies and procedures, internal quality assurance reports,
   and other documentation related to the Military Department audit agencies
   implementation of the observations and recommendations made from the
   FY 2002 peer review. In addition, we discussed with the responsible agency
   personnel what action each of the Military Department audit agencies took
   regarding the observations and recommendations made.

   Review Limitation. There was a limitation for the review in that we did not do
   any testing to determine whether the actions taken by the Military Department
   audit agencies were effective in improving the internal quality control system of
   each of the respective agencies.

   FY 2002 Peer Review Reports. Copies of the Military Department audit
   agencies FY 2002 peer review reports and the Inspector General of the DoD
   overall assessment can be found at
   http://www.dodig.osd.mil/Inspections/APO/externalreview.htm.




                                        8
